                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A05060034                                                           11          Page 1 of 1
                                                                                                               Il1
          An NSF Program Officer forwarded to our office an allegation of plagiarism that was made
          during a peer review panel meeting. Our review of the material determined that there was a
          small amount of unattributed text that was apparently plagiarized. We wrote separate inquiry
          letters to each of the PI and co-PIS (a total of five individuals) on a proposal.' We also asked
          about references and quotations that appeared in the text of the proposal that were not linked to
          an entry in the References.

          Two co-p1s2indicated that they did not write any of the proposal. In a common response letter
          submitted by the remaining three in~esti~ators,~ one cop1 claims that he did not know that strict
          adherence to the standards of scholarship was needed in an NSF proposal. A second cop1 was
          confused between the need for paraphrasing and the need for citation for exactly duplicated text.
          The PI admitted to a few sentences of plagiarized text, and admitted that this same text also
          appeared without quotation (but there with the proper reference) in an earlier proposal submitted
          by the same group4. The common response letter explained the incomplete Reference section as
          a result of deadline pressure for proposal submission.

          We also reviewed other proposals submitted by the PI and co-PIS and found no other instances of
          plagiarism. Given the small amount of plagiarized text, and the fact that no additional plagiarism
          was found in other proposals, we determined that the subjects' actions were not a significant
          departure fiom accepted practices. We wrote a strongly worded letter to the subjects to
          underscore the seriousness of the allegation and the strong expectation that standards of
          scholarship are to be followed in future proposals submitted to NSF.

          Accordingly, this case is closed.




          I
              Redacted
              Redacted
              Redacted.
          4
              Redacted



NSF OIG Form 2 (1 1/02)
